           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   INFORMATION: Quality Control Review of                                Date:   December 10, 2009
           Single Audit of the South Carolina
           Department of Transportation
           Report No. QC-2010-032
                                                                              Reply To   JA-20
  From:    Earl C. Hedges                                                     Attn Of:
           Program Director for Single Audit
    To:    Division Administrator, FWHA, South Carolina Division Office
           Regional Administrator, FTA, Region IV


           The U. S. Department of Transportation is the cognizant Federal single audit
           agency for the South Carolina Department of Transportation (SC DOT). This
           report presents the results of our Quality Control Review of a single audit
           performed by Scott McElveen LLP on SC DOT for the fiscal year ending
           June 30, 2008. During this period, SC DOT expended about $392 million from
           six Department of Transportation grant programs.

             DOT Operating               CFDA *     Program              FY 2008     Major Direct
             Administration                #         Name              Expenditures Program Award
              Federal Highway                     Highway Planning
                                         20.205                        $371,197,237       Yes    Yes
               Administration                      and Construction
               Federal Transit                    Capital Investment
                                    20.500                               $9,176,671       Yes    Yes
               Administration                       Grants Program
               Federal Transit                       Metropolitan
                                    20.505                                 $482,941       No      No
               Administration                      Planning Grants
                                                   Formula Grants-
              Federal Transit
                                    20.509            Other than         $8,961,949       Yes    Yes
              Administration
                                                   Urbanized Areas
                                                 Elderly Persons and
              Federal Transit
                                    20.513           Persons with        $1,908,478       No     Yes
              Administration
                                                      Disabilities
              Federal Transit                     State Planning and
                                    20.515                                   $1,388       No     Yes
              Administration                           Research
           * Catalogue of Federal Domestic Assistance

           The Office of Management and Budget (OMB) Circular A-133, “Audits of States,
           Local Governments, and Non-Profit Organizations;” requires the auditor to render
           an opinion on the entity’s financial statements, identify inappropriate use of
                                                                                             2

Federal funds, and report internal control and compliance deficiencies that affect
Federal grant programs.

Scott McElveen rendered an unqualified (clean) opinion on SC DOT’s financial
statements and did not question any costs concerning Department of
Transportation programs. However, Scott McElveen rendered a qualified opinion
on SC DOT’s compliance with FHWA Highway Planning and Construction
(CFDA 20.205) and FTA Capital Investment Grants (CFDA 20.500) requirements
for use of federal funds. In addition, Scott McElveen made recommendations to
correct the following internal control and compliance findings that directly affect
FHWA and FTA programs. 1

• Ineffective monitoring of subrecipients’ use of Federal funds and
  communication of CFDA numbers to subrecipients at the time of
  award.
• Not filing Disadvantaged Business Enterprise (DBE) reports
  semiannually as required by FTA.

SC DOT’s timely correction of these deficiencies is critical to ensuring its proper
use of the upcoming American Recovery and Reinvestment Act (ARRA) funds.

The purpose of our review was to determine: (1) the adequacy of the auditor’s
work; (2) whether the work complied with Generally Accepted Government
Auditing Standards as prescribed by the Comptroller of the United States, the
Single Audit Act of 1984, as amended (Act), and OMB Circular A-133; and (3)
the extent to which we could rely on the auditor’s work.

RESULTS

Based on our Quality Control Review, we determined that Scott McElveen’s work
generally met the requirements of Generally Accepted Government Auditing
Standards, the Act, and OMB Circular A-133. We found nothing to indicate that
Scott McElveen’s opinion on the financial statements or reports on internal control
and compliance were inappropriate or unreliable.

However, we identified audit documentation deficiencies in Scott McElveen’s
audit work. Scott McElveen provided explanations and additional documents in
response to our concerns about its testing of internal controls, reporting of
significant findings, and reviewing correction of prior audit findings. Based on the
information provided by Scott McElveen, we determined that these documentation
deficiencies did not alter the overall audit results. However, to adequately support
audit conclusions, these deficiencies should be corrected in future audits. The
deficiencies are related to the following areas:

1
    We advised FHWA and FTA about these deficiencies in a separate memorandum. The single audit
    report issued by Scott McElveen is available upon request.      Requests should be sent to
    singleauditrequest@oig.dot.gov.
                                                                                 3

1. Testing of Major Program Internal Controls.
   Scott McElveen did not adequately document its testing of internal controls
   related to direct and material major program compliance requirements. Scott
   McElveen prepared internal control narratives, performed system
   walkthroughs, and relied on compliance testing to test major program internal
   controls. However, the documentation did not show how compliance testing
   included tests of major program internal controls. During our review, Scott
   McElveen provided an explanation of its approach to test major program
   internal controls and agreed to fully document this approach in future audits.

2. Significant Deficiency (2008-5) Not Considered a Material Weakness.
   Scott McElveen reported a significant deficiency in SC DOT’s filing of DBE
   reports. However, its audit documentation did not include an explanation of
   why the significant deficiency, which resulted in a qualified opinion in SC
   DOT’s compliance with FHWA and FTA requirements for use of Federal
   funds, was not considered a material weakness. During our review, Scott
   McElveen provided the rationale and agreed to document such explanations in
   future audits, if applicable.

3. Major Program Compliance Findings (2008-4 & 2008-5) that Caused a
   Qualified Opinion.
   Scott McElveen’s audit documentation did not include an explanation of why
   major program compliance findings were significant enough to cause the
   programs (CFDA 20.205 & CFDA 20.500) to receive a qualified opinion.
   During our review, Scott McElveen provided the rationale and agreed to
   document such explanations in future audits, if applicable.

4. Summary Schedule of Prior Audit Findings.
   SC DOT did not prepare a summary schedule of prior audit findings as
   required by OMB Circular A-133 Section 315(b). In addition, Scott McElveen
   did not document the basis for its conclusion that all prior year audit findings
   (except for 2007-1 and 2007-3; repeated as 2008-1 and 2008-4, respectively)
   had been corrected. During our review, Scott McElveen demonstrated that
   current year testing supported its conclusion that prior year findings were
   corrected by SC DOT and agreed to improve its documentation in future
   audits.

If you have any questions concerning this report, please call me at (410) 962-1729
or John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.

                                         #

cc:   Audit Liaison, FTA, TBP-11
      Audit Liaison, FHWA, HAIM-11
      Audit Liaison, OST, M-1
      Controller, South Carolina Department of Transportation
